    COMMODITY FUTURES TRADING COMMISSION

      SEMIANNUAL REPORT
            OF THE




       OFFICE OF THE
    INSPECTOR GENERAL




1

     FOR THE PERIOD ENDING MARCH 31, 2002
                     u.s. COMMODITY FUTURES TRADING COMMISSION
                                          Three Lafayette Centre
                               1155 21st Street, NW, Washington, DC 20581
                                         Telephone: (202) 418-5110
                                         Facsimile: (202) 418-5522


                                            April 30, 2002
    OFFICE OF
INSPEC10R GENERAL



  TO:           James E. Newsome
                Chainnan

  FROM:         A. Roy Lavik
                Inspector General
                                 0. 12 ~
  SUBJECT:      Semiannual Report of the Office of the Inspector General

         Attached is the Semiannual Report of the Office of the Inspector General for the period
  from October 1, 2001 through March 31, 2002. This report is submitted to you in accordance
  with the requirements of Section 5· ofthe Inspector General Act of 1978, as amended.

         I appreciate your continuing support of this office.

  Attachment
                  OFFICE OF THE INSPECTOR GENERAL
               COMMODITY FUTURES TRADING COMMISSION

                               SEMIANNUAL REPORT
                              FOR THE PERIOD FROM
                      October 1, 2001 THROUGH March 31, 2002

                               TABLE OF CONTENTS

Sillv1MARY OF OIG ACTIVITIES [including a description of significant problems, abuses,
       and deficiencies and a description of OIG recommendations for corrective action
       (Mandated by Section 5(a)(1) and (2) of the Act)]                                         .1
       AUDITS                                                                                     1
       IN'VESTIGATIONS                                                                            2
       LEGISLATIVE AND REGULATORY REVIEWS                                                         2

OIG RESPONSIBILITIES                                                                             3

OIG RESOlJR.CES                                                                                  4

CFTC PROGRAMS AND OPERATIONS                                                                     4

COMPLETED WORK.                                        "                                    4
    AUDITS [including a list of each audit report issued and a summary of each particularly
    significant report (Mandated by Section 5(a)(6) and (7) of the Act)]                    4
    IN'VESTIGATIONS                                                                         6
    LEGISLATIVE AND REGULATORY REVIEWS                                                      6

AUDIT REPORTS OVER SIX MONTHS OLD                                                                7

       CORRECTIVE ACTION NOT COMPLETED [including an identification of each
       significant recommendation described in previous semiannual reports on which
       corrective action has not been completed (Mandated by Section 5(a)(3) of the Act)] ........7

       CORRECTIVE ACTION COMPLETED                                                               7
       MANAGEMENT DECISION NOT MADE [including a summary of each audit
       report issued before the commencement of the reporting period for which no management
       decision has been made by the end of the reporting period (including
       the date and title of each such report), an explanation of the reasons such a
       management decision has not been made, and statement concerning the desired timetable
       for achieving a management decision on each such report (Mandated by Section 5(a)(lO)
       of the Act)]                                                                         8

SUMMARY OF MATTERS REFERRED TO PROSECUTIVE AUTHORITIES and
    the prosecutions and convictions which have resulted (Mandated by
    Section 5(a)(4) of the Act)                                                            8

SUMMARY OF EACH REPORT MADE TO THE AGENCY HEAD
    under Section 6(b)(2) concerning infonnation or assistance unreasonably
    refused or not provided (Mandated by Section 5(a)(5) of the Act)                       8

REVISED MANAGEMENT DECISIONS [including description and explanation of
     the reasons for any significant revised management decision made during the
     reporting period (Mandated by Section 5(a)(11) of the Act)].                          8

INSPECTOR GENERAL DISAGREEMENT [including infonnation concerning any
     significant management decision with which the Inspector General is in
     disagreement (Mandated by Section 5(a)(12) of the Act)]                               8

CtJRRE.NT AlJDITS                                                                          8

GAO LIAISON                                                                               13

STRATEGIC PL.AN"                                                                          14

CONTACTING THE OFFICE OF THE INSPECTOR GENERAL                                            19

TABLE 1 -- REPORTS ISSUED WITH QUESTIONED COSTS
     (Mandated by Section 5(a)(8) of the Act)                                             20

TABLE 2 -- REPORTS ISSUED WITH RECO:M:MENDATIONS THAT FUNDS BE PUT
     TO BETTER USE (Mandated by Section 5(a)(9) ofthe Act)                                21




                                             11
                    INDEX OF IG ACT REPORTING
                          REQUIREMENTS

Section 5(a)(I)                                      1

Section 5(a)(2)                                      1

Section 5(a)(3)                                      7

Section 5(a)(4)                                      8

Section 5(a)(5)                                      8

Section 5(a)(6)                                      4

Section 5(a)(7)                                 ~    4

Section 5(a)(8)                                     20

Section 5(a)(9)                                     21

Section 5(a)(1 0)                                    8

Section 5(a)(11)                                     8

Section 5(a)(12)                                     8




                                111
                        SUMMARY OF OIG ACTIVITIES


AUDITS

        The primary objectives of the Office of the Inspector General (OIG) ofthe Commodity
Futures Trading Conimission (Commission, CFTC) are to help promote long-term efficiency and
effectiveness in the administration and operation of the Commission and to protect against fraud,
waste, and abuse. This reporting period's OIG audit activities which are ·listed below reflect
these objectives.

Current Audits

       The following are the audits being conducted during the current reporting period and
continuing into the next reporting period. (For additional details, see the section on current audits
beginning on page 8.)

       Review of Enforcement Information Requirements. The obj ectives ofthis review are to
       determine what the information needs of all levels in the Division ofEnforcement are,
       whether the infonnation needs are being met, and if the required information can be
       created, stored, and retrieved in a more effective and efficient manner. (For additional
       details, see page 9.)

       Review of Agency Compliance with GPRA. The Government Performance and Results
       Act of 1993 (GPRA) requires federal agencies to develop strategic plans, prepare annual
       plans setting performance goals, and report annually on actual performance comp~ed to
       goals. The first report was prepared in March 2000. The objective ofthis review is to
       determine how effectively the Commission is complying with GPRA's terms. This will
       include an examination of the performance measures devised by the Commission and the
       systems used for gathering the data to report on those performance measures. (For
       additional details, see page 11.)

       Audit of Los Angeles Lease ofReal Estate. The objectives ofthis audit are to determine
       if all payments were made in accordance with the terms of the lease agreement, whether
       established payment procedures were followed, and if the agency complied with the
       Prompt Payment Act. This is the first audit conducted by the Office of Inspector
       General of the Los Angeles, California regional office lease agreement. This audit will
       cover all payments for the subject lease for the period from July 1, 1993 through
       December 31, 2001 for all office space leased in the building at 10900 Wilshire
       Boulevard, Los Angeles, California. (For additional details, see page 12.)




                                                  1
       Evaluation of the CFTC Infonnation Security Program and Practices. GISRA. The
       Government Information Security Refonn Act (GISRA) requires the Inspector General or
       his designee to perfonn annual independent evaluations of the infonnation security
       program and practices of the agency. (For additional details, see page 12.)


Completed Audits

       The following audits have been completed during this reporting period.

       Audit of Compliance with the Federal Managers' Financial Integrity Act. In support of
       01\1B Circular A-123 (Revised), the Inspector General evaluates, provides technical
       assistance, and advises the agency head as to whether the agency's review and evaluation
       process was conducted in accordance with the circular's requirements. (For additional
       details, see page 5.)

       Peer Review of External Office of the Inspector General. Each office of the Inspector
       General is subject to a periodic external review. The objectives of this peer review are to
       determine whether the Office of Inspector General's internal quality control"system is
       adequate, in place, and operating in compliance with auditing standards promulgated by
       the Comptroller General of the United States; and whether established policies,
       procedures and applicable auditing standards are being followed in practice. (For
       additional details, see page 5.)


INVESTIGATIONS

        The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or infonnation from the Commission's employees concerning
the possible existence of an activity constituting a violation of law, rules or regulations, or
mismanagement, abuse of authority, or gross waste of funds, or a substantial and specific danger
to the public health and safety.

       No investigations were pending as of the beginning of the reporting period. The OIG
opened three investigations and one preliminary inquiry during the reporting period and
completed one investigation. Two investigations and one preliminary inquiry remained open at
the end of the period. (See the section on investigations beginning on page 6.)


LEGISLATIVE AND REGULATORY REVIEWS
        The OIG reviews proposed and final CFTC regulations and legislation and selected
exchange rules using the following basic criteria: whether the agency: (1) has identified
specifically the problem(s) to be addressed by the proposal; (2) has defined through case study or
data analysis a clear link between the proposed solution and the identified problem(s); (3) has
specified clearly the means to effectively and efficiently enforce the proposal; (4) has assessed


                                                2
the likely efficiency and effectiveness of alternative solutions; (5) can reasonably document that
the proposal will yield positive net benefits over the long term; and (6) has met the requirements
of the Regulatory Flexibility Act and the Paperwork Reduction Act.

        The Regulatory Flexibility Act requires the agency to evaluate the impact of its
regulations on small entities. The Paperwork Reduction Act requires the agency to manage
effectively and efficiently its information collections so that they are the least burdensome
necessary to achieve the stipulated objectives.

Legislative Activities

     The Inspector General continues to be heavily involved in legislative activities as a
member of the IG's Legislation Committee. Congressional staff and, in some instances,
members were briefed about the various IG issues.



                              OIG RESPONSIBILITIES


       The Office of the Inspector General in the Commodity Futures Trading Commission was
created in accordance with the Inspector General Act of 1978 (P.L. 95-452), as amended by the
Inspector General Act Amendments of 1988 (P.L. 100-504). The OIG was established to create
an independent unit to:

        •   Promote economy, efficiency, and effectiveness in the administration of CFTC
            programs and operations and to detect and prevent fraud, waste, and abuse in such
            programs and operations;

        •   Conduct and supervise audits and, where necessary, investigations relating to the'
            administration of CFTC programs and operations;

        •   Review existing and proposed legislation and regulations and make recommendations
            concerning their impact on the economy and efficiency of CFTC programs and
            operations or the prevention and detection of fraud and abuse; and

        •   Keep the Chairman and Congress fully informed about any problems or deficiencies
            in the administration of CFTC programs and operations and provide
            recommendations for correction of these problems or deficiencies.

       Given that the CFTC does not have extensive contracts or grant making authority, the
GIG's efforts have been focused on the review of legislative and regulatory proposals and the
monitoring of internal CFTC operations.




                                                 3
                                      OIG RESOURCES

        The OIG consists of the Inspector General, two professional staffmembers, and a
secretary. All positions have been·filled since January 2,2000. The present Inspector General
assumed his position on October 7, 1990.

       The OIG, on December 4, 1989, signed a Memorandum ofUnderstanding with the Office
of General Counsel (OGC). This Memorandum details the procedures that will be used to
provide the OIG with OGC legal services. An OGC staffmember has been assigned to provide
such services to the OIG on an as-needed basis.



                  CFTC PROGRAMS AND OPERATIONS

       Congress created the Commodity Futures Trading Commission in 1974 as an
independent agency with the mandate to regulate commodity futures and option markets in the
United States. The Commission's mandate was renewed andlor expanded in 1978, 1982, 1986,
1992, and 1995. In December 2000, the Commission was reauthorized by Congress and the
President through fiscal year (FY) 2005 with the passage of the Commodity Futures
Modernization Act of2000 (CFMA).

        The CFMA fundamentally transfonns the Commission from a front-line regulatory
agency to an oversight regulator. Although the Commission's approach to regulation will
change, the CFTC's mission remains unchanged. The CFTC continues to be responsible for
fostering the economic utility of futures markets by encouraging their competitiveness and
efficiency, ensuring their integrity, and protecting market participants against manipulation,
abusive trade practices, and fraud. Through effective oversight regulation, the CFTC enables the
commodity futures markets better to serve their vital function in the nation's economy --
providing a mechanism for price discovery and a means of offsetting price risks.



                                COMPLETED WORK

AUDITS

       The OIG is required to conduct, supervise and coordinate audits of CFTC programs and
operations and to ensure that the audits are conducted in accordance with generally accepted
government auditing standards. The OIG is also required to recommend changes to existing and
proposed CFTC programs and operations to promote economy, efficiency, and effectiveness and
                                                                                                   -
                                                                                                   9
to prevent and detect fraud and abuse.




                                               4
          The purpose ofthese audits is to ensure that:

          •   Funds have been expended in a manner consistent with related laws, regulations, and
              policies;

          •   Resources have been managed effectively and efficiently;

          •   Stipulated program objectives have been achieved; and

          •   Resources have been safeguarded.

          The following audit report has been issued during the reporting period.

1.        Audit of Compliance with the Federal Managers' Financial Integrity Act

Objectives.

       In support of O:MB Circular A-123 (Revised), the Inspector General evaluates, provides
technical assistance, and advises the agency head as to whether the agency's review and
evaluation process was conducted in accordance with the circular's requirements.

Status.

        The OrG reviewed all of the draft internal control reviews produced by the Commission
and provided comments to the originating divisions. The OrG reported the results of its review
of the final submissions to the Chairman in its annual assurance letters. The OrG offered its
services to the CFTC Internal Control Committee as advisor and consultant on conducting and
reporting on internal control reviews.

2.        Peer Review of External Office of the Inspector General

Objectives.

        Each office of the Inspector General is subject to a periodic external review. The
objectives ofthis peer review are to detennine whether the Office of Inspector General's internal
quality control system is adequate, in place, and operating in compliance with auditing standards
promulgated by the Comptroller General of the United States; and whether established policies,
procedures and applicable auditing standards are being followed in practice.

Status.

       The final report was prepared and delivered on October 30,2001 to the other agency's
Inspector General.




                                                   5
INVESTIGATIONS

        The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or infonnation from the Commission's employees concerning
the possible existence of an activity constituting a violation of law, rules or regulations, or
mismanagement, abuse of authority, or gross waste of funds, or a substantial and specific danger
to the public health and safety.

       No investigations were pending as ofthe beginnffig ofthe reporting period. The OIG
opened three investigations and one preliminary inquiry during the reporting period and
completed one investigation. Two investigations and one preliminary inquiry remained open at
the end of the period.

        In response to an anonymous telephonic complaint alleging that a CFTC attorney was
practicing law outside of CFTC during business hours, the Inspector General opened an
investigation. The investigation detennined that the attorney had stated clearly to all participants
in all meetings that the attorney was not representing one of the parties as an attorney but was
merely advising the party as a friend and that the subsequent actions were in accordance with
that declaration. Accordingly, this investigation was closed.

LEGISLATIVE AND REGULATORY REVIEWS

        As specified in Section 4(a) (2) of the Inspector General Act of 1978, the OIG reviews
the impact of existing and proposed legislation and regulations on CFTC programs and
operations and makes recommendations regarding more effective or efficient alternatives or
protections against fraud and abuse. The OIG also reviews exchange rule proposals and changes.

        The OIG has notified the responsible Division as to any concerns with draft and final
documents for the legislation, rules or investigations listed below. Fonnal comments were not
filed with the Commission. A summary of the principal legislation, regulations and
investigations reviewed and the OIG review results follows.

RULE REVIEWS INITIATED IN PREVIOUS REPORTING PERIODS


1. Proposed Amendments regarding Performance Data and Disclosure for Commodity
Trading Advisers (CTA).

Summary of Action

       Staffproposed amendments that would require rate of return perfonnance measures used
by a CTA to be computed by dividing net perfonnance by the nominal account size. Previously
the CFTC had required that actual deposited funds be used in the denominator.




                                                 6
OIGReview

       The OIG urged staff to consider using a focus group to determine the relative value of
disclosure of the two methods. Draft final rules have been prepared by staff.

2. Relevant Considerations for Default Judgements.

Summary of Action

      A question has been raised about the appropriate circumstances for the entry of default
judgements.

OIGReview

       OIG concluded its review of the issue and made recommendations. Staff is currently
reviewing the issue.

RULE REVIEWS INITIATED THIS REPORTING PERIOD


        The OIG has reviewed the numerous rules required by the Commodity Futures
Modernization Act of2000 ("Act"). The Act altered the relationship ofthe Commission and the
futures industry in many regards. The rules sought to reflect this change.

Legislative Activities

       The IG continues to be involved in legislative activities as a member of the IG's
Legislative Committee. Contact has been made with congressional staff on various IG issues.



               AUDIT REPORTS OVER SIX MONTHS OLD


CORRECTIVE ACTION NOT COMPLETED
       There were no instances of audit reports over six months old where corrective action had
not been completed.

CORRECTIVE ACTION COMPLETED
        There were no instances of reports issued before the commencement of the reporting
period for which corrective action had been completed by the end of the reporting period.




                                                7
MANAGEMENT DECISION NOT MADE

        There were no instances ofreports issued before the commencement of the reporting
period for which a management decision had not been made by the end of the reporting period.


                   SUMMARY OF MATTERS REFERRED TO
                      PROSECUTIVE AUTHORITIES

       No matters were referred to prosecutive authorities during the reporting period


                   SUMMARY OF EACH REPORT MADE TO
                         THE AGENCY HEAD

        No reports were made to the agency head under section 6(b)(2) concerning information
or assistance unreasonably refused or not provided.


                      REVISED MANAGEMENT DECISIONS

           No management decisions were revised during the reporting period.


                   INSPECTOR GENERAL DISAGREEMENT

      The Inspector General does not disagree with any management decisions on GIG
recommendations.


                                     CURRENT AUDITS

           The audit agenda and priorities for the GIG are determined based on the following
factors:

           •   Statutory and regulatory requirements;




                                                   8
          •   Adequacy of internal control systems as indicated by vulnerability assessments and
              internal control reviews recommended by OMB Circular A-123;

          •   Changes in the program conditions or particular vulnerability of the organization,
              program, activity, or function to problems or deficiencies;

          •   Current and potential dollar magnitude and likely benefits of a review on the
              efficiency or effectiveness of CFTC programs and operations;

          •   Management priorities and improvements that may be possible;

          •   Results of audits of CFTC programs and operations by other Federal agencies; and

          •   Availability of audit resources and the potential opportunity costs to the agency.

       The audit agenda and summary ofprogress for each audit, which has not yet been
completed, is summarized below. New agenda items periodically will be added, as appropriate,
along with a description of the audit objective for each.

1.        Review of Enforcement Information Requirements

Objectives.

        The mission of the Division of Enforcement is to investigate and prosecute fairly and
effectively violations of the Commodity Exchange Act and the Commission's regulations in
order to safeguard the integrity ofD.S. futures and options markets and to protect market
participants and futures and options customers. In the course of its activities, the division, with
headquarters and regional components, plans and follows an often complex course to achieve its
objectives and receives and creates a huge volume of documents which must be logically stored
and regularly accessed. To support the accomplishment of these tasks, the division is relying on
a collection of very old manual and automated systems to track the progress of activities and to
store and retrieve documents. The objectives of this review are to determine what the
information needs of all levels in the division are, whether the information needs are being met,
and if the required information can be created, stored, and retrieved in a more effective and
efficient manner.

Status.

        The joint OIG/Enforcement team produced extensive and detailed narrative flow charts
of the current operational and administrative functions and processes of the Division of
Enforcement and delivered them to the Division of Enforcement and the Office of Information
Resources Management (OIRM). These products were designed to inform the analysts in OIRM
of the inner workings of the Division of Enforcement and to serve as the base on which the
information requirements of the Division of Enforcement will be defined.




                                                    9
       In September 1997, in a joint meeting ofrepresentatives ofthe Division ofEnforcement,
the OIG, and OIRM, the principals made commitments of six staff years of effort from OIRM
and approximately three staff years of effort from Enforcement to define the system
requirements of Enforcement.

        The Division ofEnforcement and OIRM agreed that the first priority was the
development of a system to track documents in the Division in accordance with the Division's
Enforcement Procedure Number 3. The second phase was devoted to installing a system to track
production within the Division and to report that information in the required fonnats to
management of the Division. Phase three will concentrate on moving the functions ofthe
attorneys and investigators from paper to computer screen and using the resulting information to
improve the tracking ofproductivity information and the sharing of infonnation within the
Division.

       The final version ofthe first phase ofwhat is now being called "the Enforcement
Modernization Project" was delivered to the Division ofEnforcement in May 1998. This
Enforcement Procedure Number 3 System is now being used at all locations of the Division.
The second phase, a system which produces the monthly status reports from all parts ofthe
Division and maintains on screen data on the current status of all matters within the Division, has
been completed. Training in the use of this system was completed during March 1999.

         Phase Three, designed to present the Enforcement Division with a case manageinent,
litigation support, and document management system, to tie together the first two systems with
this new system, and to automate as many of the remaining Enforcement Division processes as
possible, began with a survey of appropriate off-the-shelf systems and an investigation of
currently available software and hardware which may meet the bulk of identified needs.
Difficulties in maintaining contractor resource levels led to delays in the pursuit ofPhase 3. A
team consisting of staff from the Division ofEnforcement, OIRM, and contractor personnel was
engaged in a review of available off-the-shelf case management, litigation support, and
document management software from the beginning of Calendar Year 2000.

   As a result of this review of available off-the-shelf software, the Division of Enforcement
and OIRM developed a list ofrequirements. A Request for Proposals reflecting those
requirements was issued on July 19,2000. None of the responses received fully met the
requirements specified in the Request for Proposals.

    In FY 2001, the agency's Executive Management Council (EMC) fonned an Integrated
Project Team (IPT) to define the systems requirements of the Enforcement Division, examine
alternative methods for meeting the requirements and recommend a solution. The solution
defined by the IPT assumed the availability of $3.7 million to fund the purchase and maintenance
of all elements of the proposed solution over a number of fiscal years.

    A total of $1.15 million ofFY 2001 money was set aside for the implementation of the e-Iaw
project defined by the IPT. Congress added $2.6 million to the e-Iaw project to insure the
availability ofEnforcement records in the event of a repeat of the September 11, 2001 terrorist




                                                10
act. With the full $3.7 million now available for implementation, the agency expects to move
forward expeditiously with the purchase of all of the elements of the e-Iaw system.

2.        Review of Agency Compliance with GPRA

Objective.

        The Government Performance and Results Act of 1993 requires federal agencies to
develop strategic plans, prepare annual plans setting perfonnance goals, and report annually on
actual performance compared to goals. The first report was prepared in March 2000. The
objective of this review is to determine how effectively the Commission is complying with
GPRA's terms. This will include an examination of the perfonnance measures devised by the
Commission and the systems used for gathering the data to report on those performance
measures.

Status.

       In response to Congressional interest, the Office of Inspector General consulted with and
advised the Commission's operating divisions concerning GPRA requirements. The Office of
Inspector General reviewed the Commission's FY 2001, FY 2002 and FY 2003 Annual
Performance Plan before each was submitted to Congress. Subsequently, we selectively
reviewed the FY 1999, FY 2000 and FY 2001 Annual Perfonnance Reports after they were
submitted to Congress. We concluded that the agency had made improvements in defining its
goals and identifying measures for reaching its stated goals.

       However, in the current fiscal year, the Commodity Futures Modernization Act was
enacted. This Act fundamentally changed the regulatory structure for the commodity futures
markets. The Commission is now adopting new rules and procedures consistent with the
regulatory refonns presented in that Act. This wholesale change in approach will challenge each
operating division to redefine its service goals under GRPA. The agency is also in the process
of implementing a reorganization that will allow the Commission to more effectively respond to
the new Act.

        To assist in this process, the Office of the Inspector General has participated in a number
of discussions on how to best reflect the agency's new regulatory paradigm in structuring future
goals and measures under GPRA. In conjunction with other federal agencies' Inspectors
General, the Office of the Inspector General is participating in the development ofbest practices
for measuring compliance with the requirements of GPRA. Once the entire set of senior
managers is in place in the Commission's new organization, the OIG will assist in the
implementation of these best practices.




                                                11
3.        Audit of Los Angeles Lease of Real Estate

Objectives.

        The objectives of this audit are to determine if all payments were made in accordance
with the terms of the lease agreement, whether established payment procedures were followed,
and if the agency complied with the Prompt Payment Act. This is the first audit conducted by
the Office of Inspector General of the Los Angeles, California regional office lease agreement.
This audit will cover all payments for the subject lease for the period from July 1, 1993 through
December 31, 2001 for all office space leased in the building at 10900 Wilshire Boulevard, Los
Angeles, California.

Status.

        The OIG has completed the review and analysis of all invoices from September 1993
through December 2001. The data gathering and analysis portions of this audit are completed.
A draft report is now being prepared for distribution to the program officials for comment. A
final report is expected by the end ofMay 2002.

4.        Evaluation of the CFTC Information Security Program and Practices, GISRA

Objectives.

      The Government Information Security Reform Act (GISRA) requires the Inspector
General or his designee to perform annual independent evaluations ofthe information security
program and practices of the agency.

Status.

        In response to GISRA, the Commission has implemented a security policy and developed
risk assessments, security plans and security procedures for its three mission-critical systems:
Market Surveillance, Exchange Database and I-FR systems. The Commission is in the process
of developing risk assessments, security plans and security procedures for its financial
management systems and payroll and personnel systems. The Office of Information Resources
Management (OIRM) is planning to hire a full time security person this fiscal year.

      To provide a comprehensive review ofthe Commission's security program, OIRM and
DIG will jointly engage a contractor. The statement ofwork for this contract has been drafted.




                                                 12
                                      GAO LIAISON


        The OIG is charged with providing policy direction for, and conducting, supervising, and
coordinating audits and investigations relating to CFTC programs and operations. In addition,
the OIG is required to recommend policies for, and conduct, supervise, and coordinate with other
Federal agencies, state and local Governmental agencies, and nongovernmental entities, audits,
investigations, and evaluations regarding the economy, efficiency, and effectiveness of CFTC
programs and operations.

       GAO also conducts audits of CFTC activities, and OIG plans its audits so as not to
duplicate GAO's efforts. Moreover, OIG in its audits activities identifies the goals of each audit
and the methods ofreaching the goals so as to minimize the requirements placed on CFTC
resources.




                                                 13
                         STRATEGIC PLAN
                             FOR THE
                 OFFICE OF THE INSPECTOR GENERAL


INTRODUCTION

        The Office of the Inspector General (DIG) in the Commodity Futures Trading
Commission (CFTC) was created in accordance with the Inspector General Act of 1978 (p.L. 95-
452), as amended by the Inspector General Act Amendments of 1988 (p.L. 100-504). The OIG
was established to create an independent unit to:

       •   Promote economy, efficiency, and effectiveness in the administration of CFTC
           programs and operat~ons and to detect and prevent fraud, waste, and abuse in such
           programs and operations;

       •   Conduct and supervise audits and investigations relating to the administration of
           CFTC programs and operations;

       •   Review existing and proposed legislation and regulations and to make
           recommendations concerning their impact on the economy and efficiency of CFTC
           programs and operations or the prevention and detection of fraud and abuse; and

       •   Keep the Chainnan and Congress fully infonned about any problems or deficiencies
           in the administration of CFTC programs and operations and provide
           recommendations for correction ofthese problems or deficiencies.

        Accordingly, the DIG has established three programs to carry out its responsibilities:
audit, investigation, and legislative and regulatory review. A summary of those programs
follows.

AUDIT

        The primary objectives ofthe DIG are to promote long-tenn efficiency and effectiveness
in the administration and operation of the Commission and to protect against fraud and abuse.

        The key to effectively and efficiently managing the CFTC is infonnation. Top level
managers and decision makers require a steady stream of organized data on the effects of their
policy decisions and resource allocations on the operations of the Commission. Once having
                                                                                                       ,
made the decision to change resource levels or policy, managers must receive accurate and
timely reports of the operational effects oftheir decision so they can detennine if the change is in
the direction and of the magnitude predicted. In the absence of such infonnation, top level
managers cannot adequately perfonn their jobs.




                                                14
        A number of obstacles to acquiring and transmitting the desired information to decision
makers may exist in some programs. Principal among them is the Commission's apparent .
difficulty in many instances in tracking the progress of a particular action across oIganiz~tional
lines within the Commission.

        A simple example is the Reparations Program prior to the installation of an OIG
recommended unified, Commission-wide tracking system. Complaints are received and
processed and hearings are held in the Office of Proceedings; appeals of initial decisions in
reparations cases are transmitted to the Office of General Counsel where proposed Commission
opinions are drafted; and appeals are decided by the Commission with the paperwork being
handled by the Office of the Secretariat. Each office involved in the process had a separate
tracking system without ties to the tracking systems in the offices preceding them or following
them in the process. Each office treated the case as if it were brand new to the Commission when
they received it. As a result, there was no provision for tracking information across
organizational lines. If the Chairman wanted to know how much time was spent on the average
reparations case of a particular description at each stage in the process, that information was
unavailable without an extensive expenditure ofmanual labor.

        A related problem is the difficulty the Commission has in associating resources devoted
to an activity with the results of that activity. The Commission does a good job of tracking
resources expended. It can detennine how much staff time and material at what cost was spent
in a particular activity. Some Commission organizations can even associate costs with particular
projects. What a program manager may have great difficulty doing, however, is telling a
decision maker that for a specific level or increase in resources, the program manager will
deliver a specific level of increased output. Without this information from all programs
competing for limited resources, decision makers cannot make reasoned resource allocation
judgements. Decision makers are forced to rely on intuition and anecdotal evidence.

       To increase the efficiency and the effectiveness of the management ofCFTC programs
and operations, the OIG will, in addition to the conduct of mandatory audits, concentrate its audit
resources on the identification of information voids and the lack of continuity in the flow of
information across organizational lines from the beginning of a process until its conclusion. The
OIG will recommend the implementation of any system improvements where the benefits of
implementing the change exceed the costs.

        In addition to our efforts to bring technology to bear on the information requirements of
the Commission, the OIG has been following the Commission's development ofmeasures and
systems of measurement in response to the Government Performance and Results Act (GPRA).
As the Commission implements GPRA, the OIG will devote significant resources to monitoring
agency performance to insure that the data is accurately gathered and that the measures reported
are the best available for demonstrating program performance.

INVESTIGATIONS

        The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees conceJ;11ing



                                                 15
the possible existence of an activity constituting a violation of law, rules or regulations, or
mismanagement, gross waste of funds, abuse of authority or a substantial and specific danger to
the public health and safety.

        The DIG has to date conducted only a reactive investigative program chiefly relying on
unsolicited employee complaints as the source of investigative leads. This reactive program has
resulted in only a handful of investigations per year. This strategy was followed because the
OIG believed that an independent regulatory agency such as CFTC without grant money or
substantial contracts to award was not likely to generate a substantial investigative workload.

        To insure that employee complaints could easily reach the DIG, a 24-hour hotline was
established in February 1993 to receive complaints. The hotline's existence is publicized in the
agency-wide telephone book and in this semiannual report.

       Because of the reactive nature of the DIG's investigative program, no investigative
agenda has been established.

LEGISLATIVE AND REGULATORY REVIEW

        B~cause ofthe importance of this activity in an economic regulatory agency, the OIG
reviews proposed and final CFTC regulations and legislation and selected exchange rules using
five basic criteria: Whether the agency: (1) has identified specifically the problem(s) to be
addressed by the proposal; (2) has defined through case study or data analysis a clear link
between the proposed solution and the identified problem(s); (3) has specified clearly the means
to effectively and efficiently enforce the proposal; (4) has assessed the likely efficiency and
effectiveness of alternative solutions; (5) can reasonably document that the proposal will yield
positive net benefits over the long tenn; and (6) has met the requirements of the Regulatory
Flexibility Act and the Paperwork Reduction Act.

        The Regulatory Flexibility Act requires the agency to evaluate the impact of its
regulations on small entities. The Paperwork Reduction Act requires the agency to manage
effectively and efficiently its information collections so that they are the least burdensome
necessary to achieve the stipulated objectives.

        Because the DIG does not initiate legislation or, generally, regulations, the DIG
legislative and regulatory review program is reactive to the legislative and regulatory proposals
developed by others. Accordingly, no independent legislative and regulatory review agenda has
been established.




                                                16
                                       AUDIT AGENDA

ANNUAL AUDITS

       The following audit is performed on an annual basis.

Audit of Compliance with the Federal Managers' Financial Integrity Act

       In support ofOMB Circular A-123 (Revised), the Inspector General will evaluate,
provide technical assistance, and advise the agency head as to whether the agency's review and
evaluation process was conducted in accordance with the circular's requirements.

OTHER AUDITS

       The OIG intends to focus the balance of its audit resources on insuring that the Chainnan,
the Commissioners, and program managers have timely, useful infonnation on the progress of
CFTC's programs in meeting their goals and objectives. For example, emphasis will be placed
on determining whether all managerial levels engaged in a process can track the progress of their
various programs. The tracking systems required in many, though not all, programs will cross
fonnal organizational lines.

        These audits will entail a cataloging and description of all of the manual and automated
systems used by an organization to gather infonnation on its use ofresources, the results of the
devotion of those resources (including definitions of measurements of accomplishment), and the
reporting of results and associated costs to the upper level managers in the Division and to the
Chainnan and the Commissioners. Cataloging of these decision support systems will be
followed by an assessment ofwhether all concerned officials are timely receiving the
infonnation they require to efficiently allocate resources to those uses which best accomplish the
priorities of the Commission. If any elements are lacking in the infonnation systems, they will
be identified and improvements will be recommended if they can be implemented in a
cost/beneficial manner.

        If recommendations are successfully implemented, the proposed systems should allow
the Chainnan, the Commissioners, and concerned program managers to track progress of a
particular program across organizational lines and to quickly determine the effects, if any, of
changes in policy, procedure, or staffing.

      The first step in accomplishing this goal will be to concentrate on documenting, and
recommending the improvement and/or development of tracking systems in every program
element throughout the Commission.

       In addition to our focus on facilitating the development of an efficient flow of
infonnation throughout the agency, the OIG will devote resources to the audit of compliance
with the tenns of agency contracts (such as, leases of space in New York, Chicago, Los Angeles,
and Washington, D.C.), the collection of funds (such as, compliance with the terms of the Debt
Collection Improvement Act of 1996 and the resultant Memorandum of Understanding wi~



                                                17
Treasury), and agency compliance with Congressional mandates (such as, the Government
Performance and Results Act and the Government Information Security Reform Act).

RESOURCESREQumED
        The OIG estimates that approximately one staff year of effort will be devoted over each
of the next five years to the development of an efficient flow of information throughout the
agency. Nine-tenths staff years of effort will be devoted over each ofthe next five years to the
compliance audits described above. The"Annual Audits" are expected to consume
approximately one-tenth staff year per year.




                                                18
                      CONTACTING THE OFFICE OF THE
                          INSPECTOR GENERAL


        The OIG is located at 1155 21 st Street, N.W., Washington, D.C. 20581. The telephone
number is (202)418-5110. The facsimile number is (202)418-5522. The hotline number is
(202)418-5510. Regular business hours are between 8:30 AM and 5:00 PM, Monday through
Friday, except Federal holidays.




                                              19
                                               Table 1
                                  Reports Issued with Questioned Costs
                                   (October 1, 2001 - March 31, 2002)


                                                                         Dollar Value
                                                                          Thousands
                                                      Number      Questioned Unsupported

.A.   For which no management decision has
      been made by the commencement ofthe
      reporting period                                   o               o        o
B.    Which were issued during the reporting
      period                                             o               o        o
      Subtotals (A + B)                                  o               o        o
 C.   For which a management decision was
      made during the reporting period                   o               o        o
      (I)      dollar value of
               disallowed costs                          o               o        o
      (ii)     dollar value of costs not
               disallowed                                o               o        o
 D.   For which no management decision
      has been made by the end of the
      reporting period                                   o               o        o




                                                                                           ,




                                               20
                                                    Table 2
                                   Reports Issued with Recommendations
                                     That Funds be Put to Better Use
                                    (October 1, 2001-March 31,2002)


                                                                  Dollar Value
                                                         Number    Thousands

      A.   For which no management decision has
           been made by the commencement of the
           reporting period                                o             o
      B.   Which were issued during the reporting
           period                                          o             o
           Subtotals (A + B)                               o             o
      C.   For which a management decision was
           made during the reporting period                o             o
           (i)      dollar value of
                    recommendations that
                    were agreed to by management
                                                           o             o
           (ii)     dollar value of
                    recommendations that
                    were not agreed to by
                    management                             o             o
      D.   For which no management decision
           has been made by the end of the
           reporting period                                o             o



..-




                                                    21
        The InspectorGeneral
        needsyourhelpto
        assure the integrity of
        CFTC's programs.



Report FRAUD, WASTE
or ABUSE to the
INSPECTOR GENERAL

HOTLINE
(202)418-5510
    Office of the Inspector General
 Commodity Futures Trading Commission
        1155 21ST Street, N.W.
        Washington, D.C. 20581
